=
\

C@OCKLE

; E-Mail Address:
Lega 1 Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 2
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1197

EUGENE MILTON CLEMONS, II,
Petitioner,
v.
JEFFERSON 8S. DUNN, COMMISSIONER,
ALABAMA DEPARTMENT OF CORRECTIONS, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
ALABAMA DISABILITIES ADVOCACY PROGRAM, THE NATIONAL ASSOCIATION OF
FEDERAL DEFENDERS, THE NATIONAL HABEAS INSTITUTE, JUSTICE 360, AND THE
CORNELL DEATH PENALTY PROJECT IN SUPPORT OF PETITIONER in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 5840 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 31st day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v
A RENEE J. GOSS 9. ¢ bes his 7 Ch L 4

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40789
